Audit Report




OIG-09-020
Management Letter for Fiscal Year 2008
Audit of the Office of Thrift Supervision’s Financial Statements

December 18, 2008




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NER AL




                                             December 18, 2008


             MEMORANDUM FOR JOHN M. REICH, DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Michael Fitzgerald /s/
                                   Director, Financial Audits

             SUBJECT:              Management Letter for Fiscal Year 2008
                                   Audit of the Office of Thrift Supervision’s
                                   Financial Statements


             I am pleased to transmit the attached management letter in connection with the
             audit of the Office of Thrift Supervision’s (OTS) Fiscal Year (FY) 2008 financial
             statements. Under a contract monitored by the Office of Inspector General, Lani Eko
             & Company, CPAs, PLLC (Lani Eko), an independent certified public accounting firm,
             performed an audit of the financial statements of OTS as of September 30, 2008,
             and for the year then ended. The contract required that the audit be performed in
             accordance with generally accepted government auditing standards; applicable
             provisions of Office of Management and Budget Bulletin No. 07-04, Audit
             Requirements for Federal Financial Statements; and the GAO/PCIE Financial Audit
             Manual.

             As part of its audit, Lani Eko issued and is responsible for the accompanying
             management letter that discusses certain matters involving internal control and its
             operation that were identified during the audit but were not required to be included
             in the auditor’s reports.

             In connection with the contract, we reviewed Lani Eko’s letter and related
             documentation and inquired of its representatives. Our review disclosed no instances
             where Lani Eko did not comply, in all material respects, with generally accepted
             government auditing standards.

             Should you have any questions, please contact me at (202) 927-5789, or a member
             of your staff may contact Mark S. Levitt, Manager, Financial Audits at
             (202) 927-5076.

             Attachment
          INDEPENDENT AUDITOR’S MANAGEMENT LETTER


To the Inspector General
U.S. Department of the Treasury

We have audited the financial statements of the U.S. Department of the Treasury, Office
of Thrift Supervision (OTS) as of and for the year ended September 30, 2008. In
planning and performing our audit, we considered the OTS’ internal control over
financial reporting as a basis for designing our auditing procedures, obtained an
understanding of the design effectiveness of internal controls, determined whether the
internal controls have been placed in operation, assessed control risk, and performed tests
of the OTS’ internal controls for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the
OTS’ internal control over financial reporting.

We noted certain matters involving internal control that are presented in the attachment to
this letter for your consideration. We believe these matters warrant management’s
attention. These comments and recommendations, all of which have been discussed with
the appropriate members of management, are intended to improve the OTS’ internal
controls or result in other operating efficiencies.

This report is intended solely for the information and use of the Inspector General of the
U.S. Department of the Treasury, the management of the OTS, the OMB, the
Government Accountability Office and Congress and is not intended to be and should not
be used by anyone other than these specified parties.




October 31, 2008
Alexandria, VA
                             Office of Thrift Supervision
                          FY 2008 Financial Statement Audit
                         Comment and Recommendations - #1


                Oversight of Bureau of the Public Debt Administrative
                        Resource Center Accounting Services

CONDITION
OTS management did not provide adequate oversight and monitoring of accounting
estimates prepared by OTS personnel and accounting services provided by the Bureau of
the Public Debt (BPD), Administrative Resource Center (ARC). ARC provides
accounting services to OTS. During our interim and year-end testing, we noted the
following weaknesses in OTS management’s oversight and monitoring of accruals
prepared by OTS personnel and ARC accounting services:

   •   Reconciliations of OTS cash accounts performed by ARC lacked evidence of
       review and approval by OTS Financial Operations staff.
   •   OTS transitioned to a new payroll process in August 2008, transferring the payroll
       processing from an internal payroll system to the National Finance Center’s
       payroll system. Based on our year-end audit fieldwork, we noted that OTS is not
       provided with payroll reconciliations from ARC to ensure that payroll data is
       being recorded accurately.
   •   Lack of OTS management review of accounts payable accruals prior to
       submission to ARC for processing.
   •   Inconsistent methodology in the estimation of the year-end accruals. In some
       instances accruals were estimated based on the outstanding balance of the
       executed contracts, and in other instances accruals were estimated based on the
       OTS staff knowledge of the contract progress.

CAUSE
OTS places significant reliance on ARC to accurately perform accounting services and
does not provide the appropriate level of oversight and monitoring of ARC activities
related to OTS transactions. In addition, OTS does not have a written procedure for
estimating accruals.

CRITERIA
Standards for Internal Control in the Federal Government issued by the Government
Accountability Office state that control activities occur at all levels and functions of the
entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of these
activities as well as appropriate documentation.

Statement of Federal Financial Accounting Standards No. 1, Accounting for Selected
Assets and Liabilities requires that when an entity accepts title to goods, whether the
goods are delivered or in transit, the entity should recognize a liability for the unpaid


                                                                                          2
                            Office of Thrift Supervision
                         FY 2008 Financial Statement Audit
                        Comment and Recommendations - #1

amount of the goods. If invoices for those goods are not available when financial
statements are prepared, the amounts owed should be estimated.

Office of Management & Budget (OMB) Circular A-123, Management’s Responsibility
for Internal Control requires that monitoring the effectiveness of internal control should
occur in the normal course of business. In addition, periodic reviews, reconciliations or
comparisons of data should be included as part of the regular assigned duties of
personnel. Periodic assessments should be integrated as part of management’s continuous
monitoring of internal control, which should be ingrained in the agency’s operations.

EFFECT
OTS financial statements are susceptible to misstatements.

RECOMMENDATION
We recommend OTS management, (1) review and strengthen its policies and procedures
to ensure proper oversight and monitoring of ARC, and (2) develop and implement
written procedures for estimating year-end accruals.

MANAGEMENT RESPONSE
OTS management concurs with the findings and recommendations.




                                                                                        3
                            Office of Thrift Supervision
                         FY 2008 Financial Statement Audit
                         Comment and Recommendation - #2


                       Monitoring of Mileage Reimbursement

CONDITION
We noted that expense reports for mileage reimbursements submitted for travel by
privately owned vehicles by OTS staff and consultants are not reviewed to ensure that the
mileage claims are accurate and valid to adequately support the expenses.

CAUSE
OTS supervisors are not required to verify the mileage as part of the review of expense
reports for travel.

CRITERIA
OTS travel policies and procedures require that travel reimbursements are subject to
supervisory review and approval.

EFFECT
Without proper support of mileage expenses, OTS is susceptible to fraud, waste and/or
abuse. In fiscal year 2008, OTS reported approximately $2 million for travel mileage
expense.

RECOMMENDATION
We recommend that OTS revise its travel policies and procedures to require the
verification of the mileage as part of the review and approval of the claim for
reimbursement.

MANAGEMENT RESPONSE
OTS concurs with the finding and recommendation.




                                                                                       4
                             Office of Thrift Supervision
                          FY 2008 Financial Statement Audit
                         Comment and Recommendations - #3


                      Access Controls Over Computer Resources

CONDITION
Access controls limit or detect access to computer resources (data, programs, equipment,
and facilities), thereby protecting these resources against unauthorized modification, loss,
and disclosure. OTS access controls for the General Support System (GSS), National
Application Tracking System, Assessment Billing System and Furniture, Fixtures and
Equipment System (Inventory Tracking System) need improvement. We noted the
following weaknesses in OTS access controls:

   •   Access authorizations are not documented on standard forms and maintained on
       file, approved by senior managers, and securely transferred to security managers.
   •   Security managers do not review access authorizations and discuss questionable
       authorizations with resource owners.
   •   System owners do not periodically review access authorization listings to
       determine whether they remain appropriate.
   •   Inactive user accounts are not monitored and removed when not needed.
   •   Controls are not adequate to ensure that prior to sharing data or programs with
       other entities, agreements are documented regarding how those files are to be
       protected.
   •   Facilities housing sensitive and critical resources have not been identified.
   •   All significant threats to the physical well being of sensitive and critical resources
       have not been identified and related risks determined.
   •   Access to sensitive areas is not limited to those individuals who routinely need
       access through the use of guards, identification badges, or entry devices, such as
       key cards.
   •   Management does not regularly review the list of persons with physical access to
       sensitive facilities.
   •   Keys or other access devices are not used to enter the computer room and
       tape/media library.
   •   The entry codes for the computer room are not changed quarterly or when key
       personnel leave.
   •   Visitors to sensitive areas, such as the main computer room and tape/media
       library, are not formally signed in and escorted.
   •   Visitors, contractors, and maintenance personnel are not authenticated through the
       use of preplanned appointments and identification checks.
   •   Database management systems (DBMS) and data dictionary (DD) controls have
       not been implemented to: restrict access to data files at the logical data view,
       field, or field-value level; control access to the data dictionary using security
       profiles and passwords; maintain audit trails that allow monitoring of changes to
       the data dictionary; provide inquiry and update capabilities from application
       program functions, interfacing DBMS or the data dictionary.
   •   The use of DBMS utilities is not limited to administrators.
                                                                                           5
                            Office of Thrift Supervision
                         FY 2008 Financial Statement Audit
                        Comment and Recommendations - #3

   •   Access and changes to DBMS software are not controlled.
   •   Access to security profiles in the data dictionary and security tables in the DBMS
       is not limited.

CAUSE
OTS does not document logical access control policies and procedures for the significant
financial applications. OTS does not document physical access control policies and
procedures for the data centers that support the significant financial applications.

CRITERIA
NIST Special Publication 800-53 (Revision 2), Recommended Security Controls for
Federal Information Systems

ACCESS CONTROL POLICY AND PROCEDURES:
The organization develops, disseminates, and periodically reviews/updates: (i) a formal,
documented, access control policy that addresses purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance;
and (ii) formal, documented procedures to facilitate the implementation of the access
control policy and associated access controls.

EFFECT
By not maintaining sufficient logical and physical access controls, the OTS exposed the
General Support System (GSS), National Application Tracking System, Assessment
Billing System and Furniture, Fixtures and Equipment System (Inventory Tracking
System) to the risk that unauthorized individuals could gain access to sensitive
information. Additionally, OTS’ ability to protect sensitive data or equipment from theft
or inadvertent disclosure would be compromised if an unauthorized person entered a
restricted facility containing sensitive OTS equipment and data.

RECOMMENDATION
We recommend OTS review and strengthen its physical and logical access control
policies and procedures to ensure only authorized individuals have access to sensitive
information.

MANAGEMENT RESPONSE
OTS management concurs with the findings and recommendation.




                                                                                       6
